                      Closeout of M90070027

                                              apparent conflict of

                                                 at th
                                               It was alleged that
                                     nd project director un er
award, was profltlng from the sale of instructional kits that were
designed under the award and sold by a small company, of which he
was the president and his wife the vice-president. This case at
first was processed jointly by the Office of Oversight and the
Office of External Audit, and was transferred to the latter office
in-    1991.
